                            TELAMON CORPORATION
                                       GEORGIA
                                         ***

                              AUDIT REPORT ON
                     U.S. DEPARTMENT OF LABOR GRANT
                            NUMBER AC-10739-00-55



                               Performance Audit for
                   Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public
Accountants, under contract to the Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


                                                   __________________________________
                                                    Assistant Inspector General for Audit




                                                       Report Number: 21-03-018-03-365

                                                       Date Issued: September 30, 2003
                                                   TABLE OF CONTENTS




                                                                                                                                        Page

ACRONYMS .............................................................................................................................i

EXECUTIVE SUMMARY ....................................................................................................... 1

INTRODUCTION AND BACKGROUND .............................................................................. 2

OBJECTIVES, SCOPE, AND METHODOLOGY................................................................... 3

FINDINGS................................................................................................................................. 5

     1. Costs Were Not Distributed Equitably Among Cost Objectives..................................... 5

     2. Performance Data Reviewed Were Accurate And Supported .........................................7


SCHEDULES

                Schedule A - Schedule of Costs Reported............................................................... 8

                Schedule A-1 - Schedule of Costs Reported
                Supplemental Information ....................................................................................... 9

                Schedule B - Schedule of Performance Reported..................................................10

APPENDIX

Appendix A –Telamon’s Written Response to Draft Report .................................................. 12
                                ACRONYMS


CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DSFP -    Division of Seasonal Farmworkers Programs

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

TCG -     Telamon Corporation of Georgia

WIA   -   Workforce Investment Act




                                        i
                                EXECUTIVE SUMMARY



The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Stokes & Knight P.A., to perform an audit of the Workforce Investment Act's
National Farmworker Jobs Program to determine whether the program was operating in
accordance with applicable regulations and was providing the Department with a satisfactory
return on its investment. DOL provides 53 grants to states and nonprofit organizations to operate
the program within 48 states and Puerto Rico. We selected a statistical sample of nine grantees
for review. We tested the direct and indirect costs claimed for reimbursement by these grantees
to determine if the costs claimed were reasonable, allowable and allocable under the terms of the
grant agreement and the cost principles set forth in OMB Circular A-122, or OMB Circular A-87,
as applicable. We also tested performance reported to determine whether it was accurate and
properly supported. The Program was audited for program year 2000 (July 1, 2000 through
June 30, 2001).

This report discusses the results of our audit of Telamon Corporation - Georgia (TCG) under
DOL Grant Number AC-10739-00-55. Under the authority of the Workforce Investment Act
(WIA), DOL's Employment and Training Administration (ETA) awarded TCG a grant in the
amount of $1,699,132 to provide training and services to eligible migrant and seasonal
farmworkers throughout the State of Georgia to strengthen their ability to achieve economic self-
sufficiency. TCG operates from six field offices and an administrative headquarters in Macon.
During PY 2000, TCG placed 192 participants in unsubsidized jobs, and provided 350 with
supportive services.

We found that $5,833 worth of supplies, which were used by all of the programs administered by
TCG were charged against the Farmworker Grant, rather than to all programs that benefited. We
applied TCG’s methodology for allocating costs and determined that the Farmworker Grant was
overcharged $2,222, which we question. We recommend that ETA recover these costs and have
TCG strengthen controls to ensure that all costs, not just recurring overhead charges, are properly
allocated to all the grants that benefit.

The performance reported was found to be accurate and supported based on the testing we
performed.

The auditee has provided a written response included as Appendix A in this report. No changes
in our position were made as a result of the response.




                                                 1
                        INTRODUCTION AND BACKGROUND



The Division of Seasonal Farmworker Programs (DSFP) within ETA is responsible for
administering the National Farmworker Jobs Program (NFJP). The intent of NFJP, under section
167 of the Workforce Investment Act, is to strengthen the ability of eligible migrant and seasonal
farmworkers and their families to achieve economic self-sufficiency through job training and
other related services that address their employment related needs. Assistance from the NFJP is
accessed through the NFJP grantee partners and local One-Stop Centers.

Telamon Corporation of Georgia, a 501(c)(3) organization, serves migrant and seasonal
farmworkers and their families under the provision of the WIA grants. TCG places
approximately 150 participants into employment annually while enrolling 185 participants in
classroom training. The majority of the families receiving services from TCG receive those
services from April through December each year in conjunction with the harvesting of onion,
cotton, cabbage and watermelon crops. TCG administers NFJP from seven offices: the
administrative headquarters in Macon along with offices in Valdosta, Lyons, Dublin, Douglas,
Blackshear and Statesboro. TCG provides core, intensive and training services to eligible
farmworkers and their families.

TCG was awarded a grant in the amount of $1,699,132 to provide training and services to
eligible migrant and seasonal farmworkers. Core services include outreach, admission and
orientation of farmworkers, as well as emergency assistance needed by farmworkers to sustain
their participation in the agricultural workforce. Intensive Services include in-depth assessments
and the development of an individual employment plan based upon those assessments. Training
services are usually in the context of a classroom environment and are provided by institutions
that subcontract with TCG on a per-participant basis, according to the objectives of the
participant’s Individual Employment Plan.




                                                2
                  OBJECTIVES, SCOPE, AND METHODOLOGY


The primary objectives of our audit were to determine whether the costs claimed by TCG for the
period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable, and
allocable under the cost principles set forth in OMB Circular A-122 and grant guidelines and to
determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National Farmworker Jobs Program
under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements and Audits
of Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed in
the Findings section of this report.

Compliance with Laws & Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on the
compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of noncompliance are discussed in the Findings section of this report.




                                               3
Our sample universe of participants included all participants enrolled during the period. In
program year 2000 TCG served 1,067 participants, of whom 602 were terminated during the
year. Farmworkers who received emergency related assistance services, most commonly in the
form of food or transportation assistance, comprised the largest group of those exiting totaling
350 participants (58 percent). Unsubsidized employment placements were the second largest
group with a total of 192 participants (32 percent). The remainder was made up of 54 other
terminations (9 percent) and 6 employment enhancement only exits (1 percent). We reviewed a
base sample of 42 participant files. Our sampling technique was a random selection so that all
participants had an equal chance of being selected. Procedures performed on the selected
participants included reviewing the eligibility determination, reviewing the types of services
provided and the costs of those services, and reviewing the program outcome for those exiting
the program.

The costs reported and performance reported by TCG are presented on the Schedules of Costs
Reported and Performance Reported in this report. These schedules, included as schedules A
and B, respectively, are based on the information reported to ETA in the Financial Status Report
and the Program Status Summary.


Entrance and Exit Conferences


The fieldwork relating to participant eligibility and program performance was performed at
TCG’s office in Macon, GA, during the period January 8, 2002 through January 18, 2002.
Fieldwork relating to the other direct program and administrative costs associated with Telamon-
Georgia’s administration of the program, was performed at the corporate headquarters of
Telamon Corporation, the parent company of TCG, in Raleigh, NC, during the period
December 11, 2001 through February 8, 2002. The entrance conference for the latter segment of
the fieldwork was held on December 10, 2001, during which we met with officials of Telamon
Corporation to discuss the purpose, scope and timing of the audit work to be performed. We
held an exit conference with these same officials on February 8, 2002, to discuss our findings and
to obtain their comments.

Auditee’s Written Comments


A draft copy of this report was provided to TCG on August 29, 2003. TCG provided their
written response to the report September 19, 2003. The written response is included as Appendix
A, beginning on page 12.




                                                4
                                            FINDINGS


1.   Costs Were Not Distributed Equitably Among Cost Objectives

TCG purchased $5,833 worth of supplies and charged the entire amount to the WIA grants. The
costs benefited all of the programs administered by TCG; therefore, the costs should have been
allocated to each program using the same methodology that TCG used to allocate its other direct
costs.

TCG has developed a methodology for allocating certain direct costs that benefit more than a
single cost objective. This methodology involves using an internally generated report called a
“labtag” report which details the distribution of time spent in an office on each cost objective.
These reports are generated periodically and the percentages of time spent are used by TCG to
distribute certain recurring direct costs, such as rent and utility costs, among different programs
when the specific amount chargeable to each program cannot be readily identified and
segregated. However not all costs are allocated using this methodology, and we take exception
to certain costs that were charged in full to the WIA grant that should have been allocated using
the established methodology.

OMB Circular A-122, Attachment A, A. 2. Factors affecting allowability of costs states:

     To be allowable under an award, costs must meet the following general
     criteria: . .

     d. Be accorded consistent treatment.

In order to determine the appropriate allocation of the supply costs, we obtained the relevant
percentages from the labtag reports and applied them to the cost of the supplies to arrive at an
amount chargeable to the WIA grant. We found that WIA was charged $2,222 more than it
should have, which we question. TCG needs to follow procedures that identify all costs
benefiting multiple cost objectives and not just recurring overhead costs like rent and utilities.

Auditee’s Response

     …We agree that the cost of purchasing those supplies should have been allocated
     to all programs administered, notwithstanding the fact that the Department of
     Labor grants were the major beneficiaries. This oversight in the allocation
     process has been rectified and allocation procedures automated since having been
     brought to our attention by the auditors.

     As the amount in question represents 0.0013 percent of the total grant and
     resulted from a now corrected systems anomaly, we respectfully request that
     recovery be forgone by the Department…



                                                  5
Auditors’ Comments

The grantee concurs with the finding.

RECOMMENDATION:

We recommend that the Assistant Secretary for ETA

       1. recover the $2,222 in questioned costs, and

       2. require TCG to strengthen controls to identify all costs, not just recurring overhead
          costs, benefiting multiple cost objectives and ensure that these costs are allocated in
          accordance with the methodology already in operation, so that each program
          administered by TCG bears its proportionate share of the cost of operation.




                                                6
2.   Performance Data Reviewed Were Accurate and Supported

We reviewed the data reported by TCG on the Program Status Summary to determine whether
this information was accurate and properly supported. We were able to verify the overall totals
reported when we compared the information to the databases TCG maintained. A summary of
this data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included reviewing the underlying support for the preparation of the
Program Status Summary as a whole, and reviewing the reported program information for the
sample of participants selected for testing. The results of our review agreed with the reported
outcomes for those participants that exited the program.




                                                 7
                                                                                         Schedule A

                                     TELAMON CORPORATION
                                           GEORGIA

                                 SCHEDULE OF COSTS REPORTED
                                  Program Year Ended June 30, 2001


                            Financial Status Report                 Reported

                            1. Classroom Training                   $ 645,829
                            2. On-the-Job Training                      16,645
                            3. Work Experience                          33,621
                            4. Training Assistance                           -
                            5. Services Only                           305,709
                            6. Administration                          166,825
                            7. All Other Program                       714,742
                            8. Total                                $1,883,371
Terms Used Above:
Classroom Training:    Costs related to participants provided some form of organized classroom training.
                       Generally includes tuition costs, stipends, and support provided while in training.

On-the-Job Training:   Costs paid to reimburse an employer for half of the wages paid to a participant
                       during a contractual training period. Also includes support paid to the
                       participant.

Work Experience:       Wages paid to a participant placed in a job by the grantee in order to assist the
                       participant by gaining practical work experience.

Training Assistance:   This is a category carried over from JTPA generally not used under WIA reporting.

Services Only:         Costs related to participants that are only provided support service, with no enrollment
                       in training programs.

Administration:        Salaries and overhead costs related to general administration of the program and not
                       directly providing program services. Costs are limited under the grant agreement.

All Other Program:     Salaries and overhead related to overall running of the program not broken out in any
                       category above.




                                                      8
                                                                                  Schedule A-1

                               TELAMON CORPORATION
                                     GEORGIA

                           SCHEDULE OF COSTS REPORTED
                                Supplemental Information
                            Program Year Ended June 30, 2001

                                                        Incurred
               Category                                   Costs      Subtotals

               1. Classroom Training
                  A. Allowances                        $ 157,131
                  B. Supportive Services                  42,169
                  C. Tuition                             446,529      $645,829

               2. On the Job Training
                  A. OJT Contractual Payments          $ 12,777
                  B. Supportive Services                  2,788
                  C. Training Materials                   1,080         16,645

               3. Work Experience
                  A. Salaries and Fringe Benefits      $ 32,240
                  C. Supportive Services                  1,381         33,621

               4. Training Assistance                  $       -              -

               5. Services Only
                  A. Salaries and Fringe Benefits      $ 170,175
                   B. Office Costs and Overhead           56,502
                   C. Supportive Services                 79,032      305,709

               6. Administration
                  A. Indirect Administration           $ 82,406
                  B. Salaries and Fringe Benefits        50,146
                  C. Office Costs and Overhead           34,273       166,825

               7. Other Program
                  A. Salaries and Fringe Benefits      $ 512,419
                  B. Office Costs and Overhead           202,323      714,742

               8. Total                                $1,883,371    $1,883,371


Note: The above information is not required to be reported to ETA, and was created by reviewing the
financial records used in preparation of the Financial Status Report.


                                               9
                                                                  Schedule B


                      TELAMON CORPORATION
                            GEORGIA

           SCHEDULE OF PERFORMANCE REPORTED
               Program Year Ended June 30, 2001

Category                                      Planned   Reported

Total Participants                              810       1,067

 Total Terminations                             778        602

   Entered Unsubsidized Employment              189        192

      Direct Placement                           -          -

      Indirect Placement                         -          -

   Also Obtained Employability Enhancement       -          -

   Employment Enhancement Only                   -           6

   Services Only                                 -         350

   All Other Terminations                       228         54

 Total Current Participants (End of Period)     32         465




                                  10
                                                           Schedule B-Continued

                                    TELAMON CORPORATION
                                          GEORGIA

                       SCHEDULE OF PERFORMANCE REPORTED
                           Program Year Ended June 30, 2001

Terminology Used

Participants                              Disadvantaged migrant and seasonal farmworkers and
                                          their dependents

Total Participants -                      Includes all participants that were provided any services
                                          during the program year. Includes participants carried
                                          over, new participants, and those exiting during the
                                          program year.

Total Terminations -                      Includes all participants that exited the program during
                                          the year.

Entered Unsubsidized Employment -         Includes all participants placed in a non-federally
                                          subsidized job.

Direct Placement -                        Participants referred directly to a job with no training
                                          services provided. (Detail not required to be reported
                                          under WIA)

Indirect Placement -                      Participants placed in a job after training or enhancement
                                          services. (Detail not required to be reported under WIA)

Also Obtained Employability
Enhancement -                             Participants placed that also received services improving
                                          job prospects, such as completing GED program,
                                          obtaining a degree, completing occupational training.
                                          (Detail not required to be reported under WIA)

Employment Enhancement Only -             Participants not placed in a job but exiting the program
                                          with enhancements to improve job prospects. See
                                          examples above. (Detail not required to be reported
                                          under WIA)

Services Only -                           Participants that exited the program with support services
                                          only, with no training or referral to employment.

All Other Terminations -                  Participants that exited the program that do not fall into
                                          any other termination category.




                                             11
                     Appendix A
Response to Draft Report by Telamon Corporation - Georgia




                           12
13
14
